HHS/OIG-Audit--"Opportunities for Improved Foster Care Eligibility Determinations, (A-12-93-00022)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Opportunities for Improved Foster Care Eligibility Determinations,"
(A-12-93-00022)
August 29, 1994
Complete
Text of Report is available in PDF format (2.95 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report analyzed findings identified in HHS audit reports issued
between March 1990 and October 1992 relating to the Foster Care Program. This
report demonstrates the need to evaluate the merits in certain statutory requirements
that States must meet to participate in the Federal Foster Care program. The
Administration for Children and Families (ACF) over the years has issued directives,
interpretations, and other instructions to clarify the Act. Despite this effort,
our audits continued to identify and recommend for disallowance a total of $185.6
million in costs over the 3 fiscal years covered by this report. The ACF concurred
with issues and options presented in this report.